      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Washington, D.C. 20201




November 4, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services

              /Joe J. Green/ for
FROM:         George M. Reeb
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Contract Signatures for the Hurricane Katrina Health-Care-Related
              Professional Workforce Supply Grant for the Greater New Orleans Area
              (A-06-09-00053)


Attached, for your information, is an advance copy of our final report on the authenticity of
contract signatures for the Hurricane Katrina health-care-related professional workforce supply
grant for the Greater New Orleans area. We will issue this report to the Louisiana Department of
Health and Hospitals within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-
6325 or through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-
00053.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
November 8, 2010

Report Number: A-06-09-00053

Ms. Gerrelda Davis
Director
Bureau of Primary Care and Rural Health
Louisiana Department of Health and Hospitals
P.O. Box 3118
Baton Rouge, LA 70821-3118

Dear Ms. Davis:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Contract Signatures for the Hurricane Katrina
Health-Care-Related Professional Workforce Supply Grant for the Greater New Orleans Area.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michelle Richards, Audit Manager, at (214) 767-9202 or through email at
Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-09-00053 in all
correspondence.

                                                 Sincerely,



                                                 /Patricia Wheeler/
                                                 Regional Inspector General
                                                   for Audit Services


Enclosure
Page 2 – Ms. Gerrelda Davis


Director Reply to HHS Action Official:

Mr. Rodney Benson
Director
Office of Acquisition and Grants Management
Centers for Medicare & Medicaid Services
Mail Stop C2-22-08
7500 Security Boulevard
Baltimore, MD 21244
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




REVIEW OF CONTRACT SIGNATURES FOR
     THE HURRICANE KATRINA
HEALTH-CARE-RELATED PROFESSIONAL
 WORKFORCE SUPPLY GRANT FOR THE
    GREATER NEW ORLEANS AREA




                         Daniel R. Levinson
                          Inspector General

                          November 2010
                          A-06-09-00053
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

As authorized by section 6201(a)(4) of the Deficit Reduction Act of 2005, the Centers for
Medicare & Medicaid Services (CMS) awarded the Louisiana Department of Health and
Hospitals (DHH), Bureau of Primary Care and Rural Health (the Bureau), a Professional
Workforce Supply Grant (the grant) to restore access to health care in communities impacted by
Hurricane Katrina. The $50 million grant funds payments to licensed health care professionals
for retention and recruitment and covers the period March 1, 2007, through September 30, 2012.
(As of September 30, 2009, all of the grant funds had been distributed.)

Pursuant to the terms of the grant, funds were to be distributed in one-time payments to
individual practitioners based on the incentive options they chose. The incentives offered were
payments for student loans, of malpractice insurance premium expenses, for contract execution
(sign-on bonuses), of income guarantees, of health information technology continuing education
expenses, and of relocation expenses. Practitioners may have chosen more than one incentive
option and received a payment not to have exceeded the limits set forth in the grant for each
practitioner type. Interested practitioners were required to submit applications for funding and
sign contracts agreeing to, among other things, provide services for 3 years in the Greater New
Orleans area and repay grant funds with interest if the contract terms were breached.

After we completed our fieldwork for a previous audit (Review of the Hurricane Katrina Health-
Care-Related Professional Workforce Supply Grant for the Greater New Orleans Area
(A-06-08-00026)), we discovered that the Bureau had reviewed practitioner contracts to
determine whether they were properly signed and had identified 26 contracts totaling $895,000
that may have contained inauthentic signatures. Bureau officials stated that one or more former
Bureau employees may have improperly signed practitioners’ names and/or the name of the
DHH undersecretary (the undersecretary) on these contracts.

OBJECTIVE

Our objective was to determine whether practitioners receiving grant funds had signed contracts
with the State in accordance with the terms of the Federal grant award.

SUMMARY OF FINDINGS

Practitioners receiving grant funds did not always have signed contracts with the State in
accordance with the terms of the Federal grant award. Of the 126 practitioner contracts included
in our review (100 from a sample we selected and 26 that the Bureau identified), 113 contracts
totaling $5,919,593 had authentic signatures. However, 13 contracts totaling $575,000 did not
have an authentic practitioner and/or undersecretary signature. Of the 13 contracts, 6 were
re-signed, leaving 7 contracts (2 from our sample and 5 from the 26 that DHH identified) totaling
$330,000 that did not contain authentic signatures. As a result, these seven contracts were not
properly signed; thus, the Bureau paid $330,000 in grant funds to practitioners who may not have
agreed to comply with the grant’s terms and conditions.



                                                i
These errors occurred because the Bureau did not have adequate policies and procedures to
ensure that employees processing the contracts were obtaining authentic signatures on the
agreements from both parties before payments were made.

RECOMMENDATIONS

We recommend that the Bureau:

    •   obtain authentic signatures for the seven contracts that were not re-signed or refund the
        $330,000 of grant funds to CMS and

    •   ensure that all of the contracts that were not part of our review contain authentic
        signatures.

BUREAU COMMENTS

The Bureau said that the seven practitioners who did not re-sign their contracts had signed
contracts but that the original contracts “may not be on file.” The Bureau stated that the
practitioners were in compliance with the grant’s requirements and that the Bureau would pursue
collection efforts if any of the practitioners failed to fulfill the grant’s requirements.
Additionally, the Bureau stated that it had reviewed all of its files to determine whether any other
contracts had questionable signatures and determined that all of the signatures were legitimate.

The Bureau’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

Because the State’s application provided that the State would use a practitioner’s contract to
legally enforce the terms of the grant if the practitioner failed to comply with them, the Bureau
should keep contracts with authentic signatures on file. Otherwise, these practitioners may not
be obligated to comply with the terms of their contracts through the end of their contract periods.
Regarding our recommendation that the Bureau ensure that all of the contracts that were not a
part of our review contain authentic signatures, the Bureau did not provide us with any
documentation showing that it had reviewed those contracts. Nothing in the Bureau’s comments
caused us to revise our recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Grant Requirements .............................................................................................1
              The Bureau ...........................................................................................................2
              Inauthentic Contract Signatures ...........................................................................2
              The Bureau’s Corrective Action ..........................................................................2
              Review of Practitioner Compliance .....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDING AND RECOMMENDATIONS ...............................................................................4

          CONTRACT SIGNATURES NOT AUTHENTIC .........................................................4

          RECOMMENDATIONS .................................................................................................5

          BUREAU COMMENTS .................................................................................................5

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................6

APPENDIXES

          A: SAMPLE DESCRIPTION

          B: SAMPLE RESULTS

          C: CONTRACTS WITHOUT AUTHENTIC SIGNATURES

          D: BUREAU COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

As authorized by section 6201(a)(4) of the Deficit Reduction Act of 2005, the Centers for
Medicare & Medicaid Services (CMS) awarded the Louisiana Department of Health and
Hospitals (DHH), Bureau of Primary Care and Rural Health (the Bureau), a Professional
Workforce Supply Grant (the grant) to restore access to health care in communities impacted by
Hurricane Katrina. The $50 million grant covers the period March 1, 2007, through
September 30, 2012. (As of September 30, 2009, all of the grant funds had been distributed.)

Grant Requirements

The grant provides for the distribution of funds for (1) retaining physicians and other licensed
health care professionals furnishing services in the Greater New Orleans Health Professional
Shortage Areas (HPSA) 1 of Orleans Parish, Plaquemines Parish, St. Bernard Parish, and certain
parts of Jefferson Parish and (2) recruiting such licensed professionals to provide health care
services within those HPSAs.

Pursuant to the terms of the grant, funds were to be distributed in one-time payments to
individual practitioners based on the incentive options they chose. The incentives offered were
payments for student loans, of malpractice insurance premium expenses, for contract execution
(sign-on bonuses), of income guarantees, of health information technology continuing education
expenses, and of relocation expenses. Practitioners may have chosen more than one incentive
option and received a payment not to have exceeded the limits set forth in the grant for each
practitioner type. The limits ranged from a maximum of $10,000 for a physical therapy assistant
to $110,000 for a physician.

Interested practitioners were required to submit applications for funding and sign contracts with
DHH before receiving grant funds. Each contract stated the amount of grant funds the
practitioner was to receive and required, among other things, that the practitioner provide
designated health care services for a 3-year period at an eligible site in the Greater New Orleans
area and repay the grant funds with interest if the contract terms were breached.

To be allowable under Federal awards, costs must conform to the terms and conditions of the
grant award (2 CFR part 225, Appendix A, C.1.d.). In approving the grant, CMS stated that the
terms and conditions of the award would incorporate all terms in the State’s application, which
specifies that every participant will enter into a contract to meet the service requirements of the
program for a 3-year commitment period. The application provided that the State would use the
contract to obligate the recipient to the terms of the grant. Pursuant to Department of Health &
Human Services grant administration regulations (45 CFR § 92.43(a)(2)), if the State fails to
comply with the terms of a Federal award, the administering agency may disallow all or part of
the cost of the activity that is not in compliance.

1
 HPSAs have shortages of primary medical, dental, or mental health care providers and may be geographic (county
or service area), demographic (low-income population), or institutional (comprehensive health center, federally
qualified health center, or other public facility).


                                                       1
The Bureau

The Bureau administers the grant. This includes obtaining the signatures of practitioners and the
DHH undersecretary (the undersecretary) on contracts between DHH and the practitioners. The
Bureau’s mission is to improve the health status of Louisiana residents in rural and underserved
areas. The Bureau works to support effective clinical practices and health care organizations and
to recruit and retain primary medical health care providers.

Inauthentic Contract Signatures

After we completed our fieldwork for a previous audit, 2 we discovered that the Bureau had
identified practitioner contracts that may have contained inauthentic signatures. When we
inquired about the matter, Bureau officials stated that one or more former Bureau employees
may have signed practitioners’ names and/or the name of the undersecretary on some contracts to
avoid obtaining the signatures.

The issue of inauthentic signatures arose when DHH officials identified an inauthentic signature
for the undersecretary during a review of one practitioner contract. As a result, DHH officials
interviewed both of the employees who had access to the contracts during our audit period and
subsequently terminated the employees. The Bureau said that it then reviewed all of the
contracts signed as of July 7, 2008, the date DHH officials notified the Bureau of the inauthentic
signature. During the Bureau’s review, DHH officials compared practitioner contract signatures
to practitioner application file signatures and visually examined the undersecretary’s signature
for irregularities but did not verify signatures with the parties to the contracts.

The Bureau’s review identified 26 practitioner contracts totaling $895,000 that may have had
inauthentic practitioner and/or undersecretary signatures. Bureau officials stated that contracts
with payment still pending were re-signed by both parties. Contracts were not re-signed if
payment had already been made to the practitioners.

The Bureau’s Corrective Action

After the Bureau reviewed the contracts, it implemented procedures to ensure contract signature
authenticity. Under the new procedures, Bureau officials required practitioners to sign contracts
in person and provide identification. Additionally, the recruitment and retention program
manager reviewed the signatures and approved all applications and contracts before documents
were forwarded for processing and payment was made.

Review of Practitioner Compliance

We used the same sample used in this review to conduct a separate review addressing
practitioner compliance with the grant terms. We will provide our findings for that review in
Review of Practitioner Compliance With the Requirements of the Hurricane Katrina


2
 Review of the Hurricane Katrina Health-Care-Related Professional Workforce Supply Grant for the Greater New
Orleans Area, A-06-08-00026, was issued on March 31, 2010.


                                                      2
Health-Care-Related Professional Workforce Supply Grant for the Greater New Orleans Area
(A-06-09-00051).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether practitioners receiving grant funds had signed contracts
with the State in accordance with the terms of the Federal grant award.

Scope

The Bureau provided us with two documents listing payments for 717 practitioner contracts.
The listing showed that the Bureau had paid $25,669,298 in grant funds during the period
March 1, 2007, through January 31, 2009. After removing the 26 practitioner contracts totaling
$895,000 that the Bureau previously identified as possibly having inauthentic signatures, we
selected a stratified random sample of 100 paid practitioner contracts that totaled $5,599,593.
For all of our sample items and the 26 items removed from our sampling frame, we attempted to
verify the practitioners’ and the undersecretary’s signatures. We considered signatures to be
authentic if the purported signers, after visually examining their signatures on the contracts,
verified the signatures as their own. We did not verify the dates signed. (See Appendix A for
the sample description.)

We did not review the Bureau’s overall internal control structure. We limited our review to
obtaining an understanding of the policies and procedures the Bureau used to contract with
practitioners. We did not review the adequacy of the signature review procedures the Bureau
implemented after determining that some practitioner contracts may have contained inauthentic
signatures.

We conducted our fieldwork at the Bureau’s office in Baton Rouge, Louisiana, and at
practitioner work sites in the Greater New Orleans area from April through November, 2009.

Methodology

To accomplish our objective, we:

  •     reviewed applicable Federal laws, regulations, and guidance;

  •     reviewed the Bureau’s policies and procedures related to contracting with practitioners for
        the grant;

  •     interviewed Bureau management officials to obtain an understanding of the contracting
        process and of the inauthentic signatures and changes the Bureau implemented to ensure
        that future contracts are properly signed;




                                                 3
   •   obtained documents listing paid practitioner contracts for the period March 1, 2007,
       through January 31, 2009;

   •   selected a stratified random sample of 100 of these paid contracts (Appendix A);

   •   reviewed the Bureau’s files, which included the practitioner contracts, for each sampled
       contract and each of the 26 contracts the Bureau previously identified as possibly having
       an inauthentic signature;

   •   verified contract signatures directly with the undersecretary and each of the practitioners
       for the 126 paid contracts; and

   •   interviewed Bureau management officials to determine whether additional contracts had
       been re-signed since the start of our review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

Practitioners receiving grant funds did not always have signed contracts with the State in
accordance with the terms of the Federal grant award. Of the 126 practitioner contracts included
in our review (100 from our sample and 26 that the Bureau identified), 113 contracts totaling
$5,919,593 had authentic signatures. However, 13 contracts totaling $575,000 did not have an
authentic practitioner and/or undersecretary signature as required by the terms of the grant. Of
the 13 contracts, 6 were re-signed, leaving 7 contracts totaling $330,000 that did not contain
authentic signatures. As a result, these seven contracts were not properly signed; thus, the
Bureau paid grant funds to practitioners who may not have agreed to comply with the grant’s
terms and conditions.

These errors occurred because the Bureau did not have adequate policies and procedures to
ensure that employees processing the contracts were obtaining authentic signatures on the
agreements from both parties before payments were made.

CONTRACT SIGNATURES NOT AUTHENTIC

The grant terms required that practitioners enter into contracts with DHH before receiving grant
funds.

Of the 126 practitioner contracts included in our review, 13 contracts totaling $575,000 did not
have an authentic practitioner and/or undersecretary signature. Of these 13 contracts, 2 were
included in our sample of 100 and 11 were included in the 26 contracts the Bureau identified
during its contract signature review (Appendix B). The Bureau asked the practitioners and


                                                 4
undersecretary to re-sign the six contracts for which payment was pending at the time of the
review but did not ask the parties to re-sign any of the five contracts for which payment had
already been made. Thus, seven contracts, five of which the Bureau had identified during its
contract review, did not have authentic signatures.

Of the seven contracts:

   •    three did not have an authentic undersecretary signature,

   •    three did not have an authentic signature by either party, and

   •    one did not have an authentic practitioner signature.

See Appendix C for the details of these errors.

The seven contracts were not properly signed; thus, the Bureau paid $330,000 in grant funds to
practitioners who may not have agreed to comply with the grant’s terms and conditions.

These errors occurred because the Bureau did not have adequate policies and procedures to
ensure that employees processing the contracts were obtaining authentic signatures on the
agreements from both parties before payments were made. Good internal control practices
would include adequate supervision and approval practices to ensure that contracts are legally
enforceable and that payments are authorized only after both parties agreed to fulfill their
obligations under the contract.

RECOMMENDATIONS

We recommend that the Bureau:

    •   obtain authentic signatures for the seven contracts that were not re-signed or refund the
        $330,000 in grant funds to CMS and

    •   ensure that all of the contracts that were not part of our review contain authentic
        signatures.

BUREAU COMMENTS

The Bureau said that the seven practitioners who did not re-sign their contracts had signed
contracts but that the original contracts “may not be on file.” The Bureau stated that the
practitioners were in compliance with the grant’s requirements and that the Bureau would pursue
collection efforts if any of the practitioners failed to fulfill the grant’s requirements.
Additionally, the Bureau stated that it had reviewed all of its files to determine whether any other
contracts had questionable signatures and determined that all of the signatures were legitimate.

The Bureau’s comments are included in their entirety as Appendix D.



                                                  5
OFFICE OF INSPECTOR GENERAL RESPONSE

Because the State’s application provided that the State would use a practitioner’s contract to
legally enforce the terms of the grant if the practitioner failed to comply with them, the Bureau
should keep contracts with authentic signatures on file. Otherwise, these practitioners may not
be obligated to comply with the terms of their contracts through the end of their contract periods.
Regarding our recommendation that the Bureau ensure that all of the contracts that were not a
part of our review contain authentic signatures, the Bureau did not provide us with any
documentation showing that it had reviewed those contracts. Nothing in the Bureau’s comments
caused us to revise our recommendations.




                                                 6
APPENDIXES
                                                                                                     Page 1 of 2


                             APPENDIX A: SAMPLE DESCRIPTION 1

POPULATION

The sampling population was practitioner contracts for grants that were paid from March 1,
2007, through January 31, 2009, for services that have been or will be furnished in the Greater
New Orleans Health Professional Shortage Area.

SAMPLING FRAME

We obtained from the Louisiana Department of Health and Hospitals, Bureau of Primary Care
and Rural Health (the Bureau), two documents listing all encumbrances and expenditures for
fiscal years 2008 and 2009. We confirmed that no contracts were paid in fiscal year 2007. The
two documents identified payments for 717 practitioner contracts. The Bureau identified 26 of
the paid contracts, totaling $895,000, as possibly having inauthentic signatures; we removed
these contracts from the sampling frame. Thus, 691 practitioner contracts with payments totaling
$24,774,298 remained.

SAMPLE UNIT

The sample unit was a paid practitioner contract.

SAMPLE DESIGN

We used stratified random sampling, defining each stratum by paid amount.

        Stratum One: $70,000 and more—104 paid contracts

        Stratum Two: $20,000 to $69,999—171 paid contracts

        Stratum Three: Less than $20,000—416 paid contracts

SAMPLE SIZE

We selected 100 practitioner contracts that were paid as of January 31, 2009. We randomly
selected 33 from stratum two and stratum three and 34 from stratum one.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software.



1
  We used the sample that was used in the Review of Practitioner Compliance With the Requirements of the
Hurricane Katrina Health-Care-Related Professional Workforce Supply Grant for the Greater New Orleans Area
(A-06-09-00051), which will be issued at a later date. Although the sample selection was the same for both reviews,
the objectives and characteristics to be measured were different.
                                                                                       Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 691. We
generated 34 random numbers ranging from 1 to 104 for stratum one, 33 random numbers
ranging from 105 to 275 for stratum two, and 33 random numbers ranging from 276 to 691 for
stratum three. After generating the 100 random numbers, we selected the corresponding frame
items.

ESTIMATION METHODOLOGY

Our sampling and estimation policy requires at least six errors for the sample results to be
projected. Because there were only two errors in our sample, we did not estimate the total
number of practitioner contracts that were paid during our audit period and that did not contain
authentic signatures, and we did not estimate the total grant amount that was incorrectly paid for
these contracts.
                            APPENDIX B: SAMPLE RESULTS

Number of Paid Practitioner Contracts Without Authentic Signatures

From stratum 1                               2
From the 26 the Bureau identified           11
   Total                                    13


Amount of Paid Practitioner Contracts Without Authentic Signatures

From Stratum 1                        $220,000
From the 26 the Bureau identified      355,000
   Total                              $575,000
            APPENDIX C: CONTRACTS WITHOUT AUTHENTIC SIGNATURES

                                                   Appropriate Department of                Contract Re-signed
            Appropriate Practitioner                  Health and Hospitals                  Before Payment of
Item 1            Signature                         Undersecretary Signature                  Grant Funds
      1               No                                      No                                   No
      2                                                       No                                   No
      3                    No                                 No                                   Yes
      4                    No                                 No                                   No
      5                    No                                                                      Yes
      6                    No                                                                      Yes
      7                    No                                                                      Yes
      8                                                            No                              Yes
      9                                                            No                              No
    10                     No                                                                      No
    11                     No                                      No                              No
    12                                                             No                              No
    13                     No                                                                      Yes
Total                       9                                       8                               6
 1
   Items 1 and 2 represent practitioner contracts included in our random sample of 100. Items 3 through 13 are
 included in the 26 practitioner contracts the Bureau identified as possibly having inauthentic signatures.
                                                                                                            Pag e 1 of2


                      APPENDIX D: BUREAU COMMENTS 




                                                                                               _0.","-_
                                                                                                        ...
                                                                                                 ...,..".


                                  1I>..1t of Ioulst.n.
                              I>q>=nt of H<oItb ADd Ho.pit.&b
                                          0££- of Pubiio IHaltb




s.po.mb« 20. 2010


Ms. Pmicia    v._
~ !mp<dor a....ru far Audi.                Son-n. 

~of!ho Imprttcx a....ru 

0f'6ce of Audit ~         

l100c.xm...,ot, Room6Jl
n.na.. TX 71141
n-Ms.~


hi .......... to """ feqoorsI <XIIL»1Ii"!! fiDdinp RImd '" !ho ~ lOlO D, ...._ .. of lIeabh
aD:! H _ Sem=, 0f'6ce oflmprttut Gmrnl (OJG) dnft J<pO<I_ A-1)6..(I9.ooo'il ...ndod
_        '" C..1TIr<1 Si~ for tM _ _ CmrirIo H__ Ct.-..JWmod Pn>f..-l.
II'~. SoppIy Gran.for tM G.Ntor N.... OrlaIru.-lrw, !ho ! .. .;,j • • , n.p.u...... ofH_ aD:!
Hnspi"I'Iw~~ibfiDdinpaD:!J"""                     odoo.:-aD:!1w ~aJ J .....

Foe eat.b. [t<'




                            .... coaIJxts .nth ~""ahI< ~ Itld ~ .nth <lilt l<pI
                         ' : : : ; optiom. w. cItmmiDed tho! it is absolu!oly cIeaJ tho! -.h ofthnt
                         IJ         1Iipt. «DIad ~ bims<lf1O pD'ow .... I<qUir<tl...,.-n. foe ....
        ,;nmt _       """;:,-..I,~"" «Dract.nth .... orip.! siplUr< ....y _              II< 011. lilt. W.
        dtcidtd '" _             eat.b. o f ' - IK;p;.ms to _ _ tho! !ho om.-x.. p<O'o-idet ore
        MIl';""" .nth .... _ _ policy Itld ........           ' of!ho,;ram. AI !his _ . all nui....
        \0 p<rlarm ill full         J Ii.,...., .nth !bo uom ~ aD:! C<ICIh<! tems. If my of!bo
        IKipimb in cp_ &ils to fulfill 1bo ~ of!bo ,;ram. _ _ 10 1'''''''
        oolI<ctioaollotts to J<COVOf - . cb, far my ...6 '          in It is '"" opiaiat:I!hot .... """'"
        of !bo "... is ltotiDfl 5>IlilIod aD:! !hoo< J<Cipi<ms or< in !ho ~ of ~ lhtil
        aItIip!iott. of p<O'o"idin!l !bo W"""''Y ....,,-x...




                             _
                      ...................
                                                 _-­__
                                          "' ........."' ... "... ................
                                   . ""..,...,.,._.
                                    ....... " ~"" ..... """.~ ......n< 



                                              ....
                                                                   --'--~,~          "'­   

                                                                                              Pag e 2of2




Rr!:0......ulio "
Eruvn tMr 011 ",lIN"""""",, tMr,....     _port"'.. .    rrn-<»IIIi>iII ... _~_

      R<>po.w: 

      We b.... "'Yorft all rue. to _          iflh<R"", ""y _         <p""im,,"" sip......_ Ba=l 

      ''I"'" ""' ......... _   ..... . _ _ ........ _    nf "'"              flw.1I ,.;~k"'"" .... 

                                                                  1 , . ' w~,1t7 .


      1rP­
